No. 21-241

 

 

IN THE

Supreme Court of the United States

MONSANTO COMPANY,

Petitioner,
v.

EDWIN HARDEMAN,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth
Circuit

BRIEF OF WASHINGTON LEGAL
FOUNDATION AS AMICUS CURIAE IN
SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,768 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 4, 2021.

 

Wilson-Epes Printing Co., Inc.
